I

CASE NO

IN THE
SUPREME COURT OF THE UNITED STATES

tr

IE

Olfm
Dianne Michele Carter - Petitioner
vs.
THOMAS PELLICANE, SOUSM,

filed

BARBARA YATES, DUSM,

mv 0 3 2020

GREGORY ALLYN FOREST, U.S. Marshal,
U.S. MARSHALS SERVICE, W/NC, - Respondents

ON PETITION FOR A WRIT OF CERTIORARI TO
Court of Appeals for the Fourth Circuit
Case 20-1059

PETITION FOR WRIT OF CERTIORARI

Dianne Michele Carter, Grantee Beneficiary
301 E John St #3143
Matthews NC 28106-3143
704-777-9558

RECEIVED
NOV 1 0 2020
SUPREEMEFCO[fRTLn^K

QUESTIONS PRESENTED
1. If the courts are to regard the Constitution and the Constitution is superior to any ordinary
act of the legislature, is it the Constitution, and not such ordinary act, that must govern
this case to which they both apply?
2. Is it constitutional for a judge to issue an order that service is to be in accordance with

Rule 4 of the Federal Rules of Civil Procedure and then proceed with the case, issuing a
Bench Warrant for the defendant’s failure to appear, knowing that the plaintiff failed to
effect service?
3. Is it constitutional for the United States Marshals Service to break into an establishment
of religion without a proper warrant and perform a search and seizure?

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.

J

ii

PROCEEDINGS IN FEDERAL COURT

N/A

in

TABLE OF CONTENTS
Questions Presented

1

Parties to the Proceeding

.....

n

Proceedings in Federal Trials.....

in

Table of Contents

IV

Table of Authorities

.....

v

Opinions Below

.....

1

Jurisdiction

2

Constitutional Provisions

.....

3

Statement of the Case

.....

6

Reasons for Granting the Petition

14

Appendix

.................

IV

Appendix A

Court of Appeals Judgment 18-2368 Doc 12 .........

1

Appendix B

District Court Order Doc 41 ..................................

1

Appendix C

Court of Appeals Judgment 17-2364 Doc 26 .........

1,7,12

Appendix C4

Court of Appeals Mandate 17-2364 Doc 28 .........

1,7, 12

Appendix D

District Court Show Cause Doc 25 ........................

1,6

Appendix E

District Court Bench Warrant Doc 34.....................

1,6

Appendix F

District Court Order Use force Doc 30 ...................

1,6

Appendix G

FRCP Rule 4 and Rule 5 ........................................

6

Appendix H

USA Motion Doc 29 ...............................................

6

Appendix I

US A Brief Doc 6-1 .................................................

9

Appendix J

26 USC §7602 Examination of books and witnesses

7, 9,12

Appendix K

District Court Transcript Doc 36 ............................

7, 9,10

Appendix L

Declaration of Barbara Yates Doc 29-2 .................

11

Appendix M

Universal Declaration on Human Rights ................

15

Appendix Nl-4

Court of Appeals Judgment 20-1059 ......................

1

Certificate of Service

16

iv

TABLE OF AUTHORITIES
Cases
Forrester v. White, 484 US 219 (1988) judicial liability for administrative actions including
actions against persons under the ADA.......................................................

8

Lyons v. St. Joseph Belt Railway Co., 232 Mo.App. 575, 84 S.W.2d 933, 944

12

Manufacturing Co v. Holt, 51 W.Va 352, 41 S.E. 351 - void judgment .........

10

Marbury v. Madison 5 U.S. 137 Supreme Court 1803 ..................................

12

Miranda v. Arizona, 384 US 436, 86 S. Ct. 1602, 16 L. Ed. 2d 694 (1966)

7

Owen v. Independence, 100S.C.T. 1398, 445 US622

13

Schweiker v Hansen, 450 U.S., 785, 789 (1981)

9

Sierra Club v. Peterson, 705 F.2d 1475, 1479 (9th Cir 1983)

.2

Tennessee v. Lane, 541 U.S. 509 (2004) - ADA

8

Trezevant v City of Tampa 741 F.2d 336; 1984 - false arrest and wrongful imprisonment

8

U.S. v. Barter Systems of Grand Rapids 557 F.Supp.698
info in Commissioner’s possession .................................................................

9

U.S. v. Miller, C.A.Mass., 463 F.2d 600, 602 ....

12

U.S. v Ohio Barge Lines, Inc., 607 F2d 624, 632

12

United States ofAmerica v Dianne M. Carter 3:16-cv-00673-FDW-DCK

9, 15

Van Manen v. U.S., 838 F. Supp. 335, affirmed 23 F.3d 409;
info in Commissioner’s possession .............................................

9, 10

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgments below.

OPINIONS BELOW
For Cases From Federal Court
The opinions of the United States Court of Appeals for the Fourth Circuit are unpublished and
are:
Appendix N1 - N4
Court of Appeals Judgment 20-1059
Appendix A

Court of Appeals Judgment 18-2368 Doc 12

Appendix C

Court of Appeals Judgment 17-2364 Doc 26

Appendix C4

Court of Appeals Mandate 17-2364 Doc 28

The opinions of the United Stated District Court for the Western District of North Carolina
appears at the following and are unpublished:
Appendix B

District Court Order Doc 41

Appendix D

District Court Show Cause Doc 25

Appendix E

District Court Bench Warrant Doc 34

Appendix F

District Court Order Use force Doc 30

1

BASIS FOR JURISDICTION

1.

The entry of the judgment of the Fourth Circuit was filed September 29, 2020.

2. This court has jurisdiction under 28 U.S.C. Code § 1254 (1)
3. Article III § 2- The judicial Power to all cases, in Law and Equity, arising under this
Constitution, the Laws of the United States and to Controversies to which the United
States shall be a Party.
4. A citizens’ suit is brought under a regulatory statute that includes a provision authorizing
a private party to bring suit against government officials for violating statutes and
regulations. Sierra Club v. Peterson.
5. ““We (judges) have no more right to decline the exercise of jurisdiction which is given,
than to usurp that which is not given. The one or the other would be treason to the
Constitution." Cohen v. Virginia, (1821), 6 Wheat. 264 and U.S. v. Will, 499 U.S. 200."
6. Amendment I - Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Constitution of the United States of 1787
Article I § 10 - No State shall pass any Law impairing the Obligation of Contracts

10

Article III § 1-The Judges .. .shall hold their Offices during good Behaviour....................

13

Article III § 2 - The judicial Power shall extend to all Cases, in Law and Equity, arising
... under this Constitution, the Laws of the United States ... ; to Controversies to which
the United States shall be a Party; ........................................................................................

2

Article VI - This Constitution, and the Laws of the United States which shall be made in
Pursuance thereof; and all Treaties made ... under the Authority of the United States, shall
be the supreme Law of the Land; and the Judges in every State shall be bound thereby, ...
Amendment I - Congress shall make no law respecting an establishment of religion

6

2, 9, 10

Amendment IV - The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be seized...........................

7,9

Amendment V - No person shall be deprived of life, liberty, or property, without due
process of law........................................................................................................................

7

Amendment XI - The Judicial power of the United States shall not be construed to extend to any
suit in law or equity, commenced or prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign Stat..................................................... 8
Amendment XIV - Nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of the
laws

7

3

United States Code
Title 1 § 204 - Codes and Supplements as evidence of the Laws of United States - In all courts,
... and of each State, ... of the United States — (a) United States Code. —The matter set forth in
the edition of the Code of Laws of the United States current at any time shall, ... establish prima
facie the laws of the United States, ... Provided, however, That whenever titles of such Code
shall have been enacted into positive law the text thereof shall be legal evidence of the laws
therein contained, in all the courts of the United States, the several States

9

Title 18 § 241 - conspiracy against rights Appendix J....................

7, 9, 12

Title 18 § 242 - deprivation of rights under color of law Appendix J

.7, 9, 12

Title 26 §7602 - Examination of books and witnesses
(a)Authority to Summon, Etc. For the purpose of ascertaining the correctness of any return,
making a return where none has been made, determining the liability of any person for
any internal revenue tax or the liability at law or in equity of any transferee or fiduciary of
any person in respect of any internal revenue tax, or collecting any such liability, the Secretary is
authorized
c) Notice of Contact of Third Parties. (1) General Notice - An officer or employee of
the Internal Revenue Service may not contact any person other than the taxpayer ... without
providing reasonable notice in advance to the taxpayer that contacts with persons other than
the taxpayer may be made ...........................................................................

10

Title 28 § 455 - Disqualification of justice, judge, or magistrate judge
Any justice, judge, or magistrate judge of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned....................

4

12

Federal Rules of Civil Procedure
Rule 4(e) - serving an individual

6

Rule 4(1) - proof of service must be made to the court

6

Rule 4(m) - time limit for service

6

Rule 5 - service

6

Other Authorities
Universal Declaration of Human Rights (UDHR) - Appendix M

15

Black’s Law Dictionary Revised Fourth Edition page 1030 - LAW HATETH WRONG. Wing.
Max. p. 563, max. 146; Finch, Law, b. 1, c. 3, no. 62

5

14

STATEMENT OF THE CASE

The purpose of this case is to challenge the lawfulness of Ms. Carter’s arrest and
confinement. On 12/21/17 Frank D. Whitney, judge signed a Show Cause ORDER mandating
service of the ORDER in accordance with Rule 4(e) of the Federal Rules of Civil Procedure
(FRCP). Appendix Dl, D2, G. The ORDER was never served on Ms. Carter as required by the
ORDER, or by any other means and Ms. Carter was not aware of the ORDER until after she was
arrested on Feb 26 2018. Other FRCP violations: there was no affidavit proof of service made
to the court as required by Rule 4(1); the court was required to, but failed to, dismiss the action
against Ms. Carter, for lack of service, in accord with Rule 4(m); Rule 5a(l)(a) necessitates the
ORDER be served because the ORDER states that service is required; Rule 5a(2) demands that a
new claim be served on Ms. Carter under Rule 4 because she failed to appear - this was not done.
Whitney lacked jurisdiction over the person. Instead of following the supreme Law of the Land,
as mandated in Constitution Article VI, Whitney, under color of law, signed a BENCH
WARRANT for Ms. Carter to be arrested. Appendix E.
The UNITED STATES OF AMERICA (USA) who initiated this case on behalf of
Commissioner of Internal Revenue (Commissioner), admitted that they failed to serve the
ORDER and filed a MOTION authorizing the United States Marshall Service (USMS) to take all
reasonable steps necessary to execute the BENCH WARRANT that resulted from the USA
failure to serve the ORDER. Appendix H. Whitney signed the requested ORDER authorizing
the USMS. Appendix F. On Feb 26 2018 at approximately 0430 hours, clothed with the
colorable authority of the BENCH WARRANT and ORDER, USMS agents Thomas Pellicane,
Barbara Yates, and approximately 4 unknown named agents of the USMS executed the BENCH
WARRANT by breaking, entering and searching private property. The property is located in

6

Matthews NC and belongs to the Moorish Holy Temple of Science of the World / Moorish
Science Temple of America Temple Trust (MHTSW/MSTA). Appendix K5, K6, K7. The
USMS agents criminally shined bright lights, with guns drawn at Ms. Carter then searched,
seized, handcuffed, waist-chained, ankle-shackled, arrested, imprisoned, questioned and
kidnapped Ms. Carter in violation of Amendment IV. The USMS failed to Mirandize, Miranda
v Arizona, and kidnapped Ms. Carter taking her to a jail cell located in the Western District
Courthouse. Ms. Carter was charged with misdemeanor civil contempt non-arrest while she was
indeed arrested for approximately 44 hours. Later that evening, the Office of Sheriff in
Mecklenburg County North Carolina conspired with the USMS by accepting responsibility for
the continued unlawful imprisonment of Ms. Carter. At the hearing of Feb 26 18, Ms. Carter
informed Whitney of the unlawful break-in by USMS. Whitney paled, but neglected to prevent
further injury to Ms. Carter, by imprisoning Ms. Carter in Mecklenburg County jail along with
criminals, including Bianca Harrison PID 465002, who is purported to be a gang member
charged with violating the RICO Act. This is conspiracy against rights and deprivation of rights
under color of law. 18 U.S.C. § 241, 242. Appendix J. At the hearing, Whitney attempted to use
the Fourth Circuit judgment to justify his actions and proceeded to read the ORDER for the
record. Appendix K1 section 1, K10, K11. While reading only Appendix C2, Whitney
overlooked Appendix C3 which states the judgment is effective upon issuance of the mandate the mandate was issued Apr 10 2018. Appendix C4. Whitney acted prematurely and exceeded
the scope of his duties at the agency. Whitney’s oversight is another cause of Ms. Carter being
arrested, is a violation of due process, equal protection of the laws and is unconstitutional.
Amendments V, XIV. Reasonable people would surmise that Whitney has engaged in conduct
prejudicial to the effective and expeditious administration of the business of the court; that

7

Whitney’s actions conflict with the superior authority of the Constitution and are criminal; that in
this case, Whitney is stripped of his official character and is subjected in his person to the
consequences of his individual conduct; that Whitney engaged in acts of treason against the
Constitution; that Whitney’s conduct occurred outside of the performance of his official duties
and would aid in substantial and widespread lowering of public confidence in the courts among
reasonable people.
Ms. Carter was under constant stress, feared for her life and her Legal Abuse Syndrome
Post Traumatic Stress Disorder (LAS PTSD) a psychic disorder and not a mental illness, was
severely aggravated. This treatment of Ms. Carter constitute a violation of the Americans with
Disabilities Act Amendments Act of 2008 (ADAAA), hereby invoking rights to safety under the
ADAAA federal mandates. ADA violations circumvent 11th Amendment immunity and there is
judicial liability for Administrative actions including actions against persons under the ADA.
Tennessee v. Lane; Forrester v. White. This false arrest and imprisonment entitles Ms. Carter to
monetary damages, as were granted in Trezevant v City of Tampa, an award of $25,000 for 23
minutes of wrongful imprisonment.
When we left the house on Feb 26 2018, the USMS actors failed or refused to secure the
house doors that they had busted open for entry. On Feb 27 2018, Pellicane, Yates and
approximately 2 unknown named agents of the USMS again entered and searched the private
property without permission, as if they owned it. They took Ms. Carter with them in handcuffs,
waist-chained and ankles-shackled. They allowed an IRS agent to enter the house without
permission. Again, USMS left the doors to the house unsecured which is the proximate cause of
the house being burglarized as reported in Matthews NC Police Department Report

8

#20180228002. This is a separation of church and state violation protected by Amendment I and
Amendment IV.
Ms. Carter is a minister, a creditor and a consumer with unalienable rights bestowed by
her Creator and operates under the authority of the Holy Bible for personal, family or household
purposes. Ms. Carter is federally protected by the Constitution, and prepared tax returns under a
private contract with her clients. Commissioner bases its authority on 26 U.S.C. Internal
Revenue Code (IRC) Appendix I. IRC is the agency’s internal policy and not judicially
enforceable. Schweiker v Hansen. IRC, in accord with 1 U.S.C. 204, establishes prima facie and
not legal evidence of the laws of the United States. IRC has no enabling statute and is anonpositive law title of the code. Statutory authority is delineated in the enabling statute, thus IRC
has no statutory authority. There is also no contractual obligation between Ms. Carter and
Commissioner therefore there is nothing granting personal jurisdiction. Commissioner acted with
no authority and initiated this case for unlawful purposes. All actions of the agency should be
invalidated by this reviewing Court as it applies to Ms. Carter and Case 3:16-cv-00673-FDWDCK.
The Western District Court exceeded its statutory authority and its agent, Whitney,
exceeded the scope of his duties at the agency when he issued an ORDER compelling Ms.
Carter, via injunction, arrest and imprisonment, to provide names, address, etc regarding Ms.
Carter’s clients. The ORDER violates the standards necessary for judicial enforcement and the
authority of statute governing examination of books. Designated administrative procedures have
not been followed and power given to the Commissioner has been overstepped. Appendix
K1 Section 2 and K4,; Van Manen v. U.S.; U.S. v. Barter Systems of Grand Rapids; 18 U.S.C. §
241,242. Appendix J. Because Ms. Carter prepared taxes utilizing both a Preparer Tax

9

Identification Number and an Electronic Filer Identification Number, the information sought is
within the possession of the Commissioner. Per Van Manen v. U.S., such request requires a
summons, the information sought must not be within the possession of the Commissioner and
administrative steps required for issuing summons must be satisfied. According to 26 USC §
7602 (a) and (c), the legislative intent to summon is for ascertaining the correctness of any return
and advance notice must be provided to the taxpayer regarding third parties. This was not the
purpose regarding Ms. Carter therefore Commissioner’s demand was for an improper purpose.
Appendix, K1 Section 2.
Whitney ruled in favor of USA in want of personal jurisdiction over Ms. Carter.
Whitney’s ruling, a violation of the separation of church and state, impacted Ms. Carter’s
religious freedoms protected by Amendment I, and impaired Ms. Carter’s right to contract,
Article I § 10. This case is coram nonjudice and the judgment is void. Manufacturing Co v.
Holt.
There are other parties liable for the injuries Ms. Carter sustained and payment of
damages to be awarded. Reasonable people would surmise that their actions were done with
criminal intent, knowing that what they did was unlawful, criminally negligent, reckless and
performed with willful blindness. Each has taken an oath to defend the Constitution, are deemed
to know the law and had it within their power to prevent further injury to Ms. Carter but failed or
refused to do so:
Commissioner of Internal Revenue
Office of Governor in North Carolina - respondeat superior
Office of Sheriff in Mecklenburg County North Carolina who neglected to verify that the

10

arrest and imprisonment was in line with the Constitution before conspiring with USMS in the
unlawful arrest and imprisonment of Ms. Carter.
Office of Mayor Town of Matthews NC - respondeat superior
Office of Chief of Matthews Police Department in North Carolina as respondeat superior.
Per the DECLARATION OF BARBARA YATES, Appendix LI, L2, Matthews Police
Department was aware on Jan 8 2018 that an unlawful arrest was going to be attempted and 3
Matthews policemen unlawfully accompanied her team to the house. On Feb 27 2018 while
Ms. Carter was being detained by Yates, Yates told Ms. Carter that when Yates went back to the
Matthews Police Department on Feb 26 2018 for their assistance in the arrest, Matthews Police
refused. However, Matthews Police had knowledge that a crime was about to be committed in
Matthews and they did nothing to prevent the arrest and imprisonment which makes them liable.
The below listed Fourth Circuit judges are also liable for the injuries Ms. Carter sustained
and payment of damages to be awarded. Reasonable people would surmise that their actions
were done with criminal intent, knowing that what they did was unlawful, criminally negligent,
reckless and performed with willful blindness. Ms. Carter appealed to the Fourth Circuit
complaining that the subject civil lawsuit was ruled in lack of jurisdiction. In the interest of
justice, proper due diligence on their part could have rendered a different result: Harvie
Wilkinson III, Henry F. Floyd and Stephanie D. Thacker Harvie Wilkinson III, participated in
Case No. 17-2364, Appendix C, and Paul V. Niemeyer, Pamela A. Harris and Dennis W. Shedd,
participated in Case No. 18-2368. They could have discovered that jurisdiction was indeed
lacking and ruled accordingly.
The actions of all 6 judges constitute actionable negligence. Each judge had the p ower
and the public duty to aid in preventing the commission of the wrongful acts ordered by

11

Whitney, which they would have discovered by reasonable diligence but neglected to do so.
This neglect constitutes conspiracy against rights and deprivation of rights under color of law
18 U.S.C. 241, 242. Appendix J. The judges are liable for all damages caused by the wrongful
acts.
The judges failed to exercise due care aiding in the injury and damages suffered by Ms.
Carter. Their conduct falls below the standard established by law for the protection of others
against unreasonable risk of harm pursuant to the precedent established in US. v Ohio Barge
Lines, Inc., 607 F2d 624, 632.
On 02/16/18, Wilkinson, Ford and Thacker decided Case # 17-2364. Appendix C1-C4.
Ms. Carter petitioned for rehearing and the same judges, Wilkinson, Ford and Thacker denied the
petition concerning their prior judgment. Pursuant to 28 USC § 455(a), these judges should have
disqualified themselves from ruling on the Petition for Rehearing En Banc. This is a conflict of
interest. Regard for one duty, their prior judgment, tends to lead to disregard of another, their
duty to be objective and fair regarding the rehearing pursuant to the precedent established in US.
v. Miller.
The actions of Wilkinson, Ford and Thacker constitute malice in law. They acted
wantonly, doing what any person of reasonable intelligence would have known to be contrary to
their duty, and purposely prejudicial and injurious to Ms. Carter. This intentional doing of
wrongful acts without just cause is malice in law pursuant to the precedent established in Lyons
v. St. Joseph Belt Railway Co.
All judges in this case have violated their oath to defend the Constitution and
Ms. Carter has been injured because of it. Per Marbury v. Madison, the very essence of civil
liberty consists in the right of every individual to claim the protection of the laws when she

12

has been injured. This defeats the doctrine of sovereign immunity which is inconsistent with
the Constitution. Article III § 1 says Judges shall hold their Offices during good Behaviour.
Behaviour. Per Owen v. Independence, officers of the court have no immunity, when
violating a Constitutional right, from liability, for they are deemed to know the law.

13

REASONS FOR GRANTING

1. The Government has abused its power, squashed the Constitutional freedoms of
Ms. Carter and their actions are sinister threats to the Bill of Rights.
2. As described herein, the Fourth Circuit decisions have so far departed from the accepted
and usual course of judicial proceedings, in their sanctioning of such a departure by the
Western District Court, as to call for an exercise of the one supreme Court’s supervisory
power.
3. The Constitution of the United States entitles Ms. Carter as a consumer and a creditor to
protections of her personal, family and household goods. The acts of the defendants
violate the Constitution, the laws of the United States and universal law.
4. As described herein, all federal actors failed to follow the Congressional intent of their
authority, their oath to defend the Constitution of the United States and their
administrative procedures.
5. "The two enemies of the people are criminals and government, so let us tie the second
down with the chains of the Constitution so the second will not become the
legalized version of the first."

Thomas Jefferson Papers

6. LAW HATETH WRONG.

14

CONCLUSION
As it applies to Ms. Carter and for the reasons stated, all of the judges mentioned have
damaged Ms. Carter when they ruled contrary to the supreme Law of the Land, the laws of the
United States and the UDHR. Appendix M. Their rulings exceed their authority and are
notwithstanding in law. Ms. Carter respectfully moves this Court to invalidate all judgments of
Case No. 3:16-cv-00673-FDW-DCK, provide appropriate relief including but not limited to $10
million or the maximum allowed by law in monetary damages - actual, compensatory, punitive
and imprisonment of the offenders for the unconstitutional federal crimes committed against
Ms. Carter because of her exercise of individual, unalienable, constitutionally protected rights
and the Universal Declaration of Human Rights.

I declare under the laws of the United States that everything stated herein is true and correct.
Executed on 3 November 2020

'dH;e Michele Carter, Grantee Beneficiary
301 E John St #3143
Matthews NC 28106-3143
704-777-9558

15

